U.S. Department of                                     The Inspector General          Office of Inspector General
Transportation                                                                        Washington, DC 20590
Office of the Secretary
of Transportation



November 12, 2008

The Honorable Patty Murray                               The Honorable John W. Olver
Chairman                                                 Chairman
Subcommittee on Transportation,                          Subcommittee on Transportation,
Housing and Urban Development, and                       Housing and Urban Development, and
Related Agencies                                         Related Agencies
Committee on Appropriations                              Committee on Appropriations
United States Senate                                     United States House of Representatives
Washington, DC 20510                                     Washington, DC 20515

The Honorable Christopher “Kit” Bond                     The Honorable Joe Knollenberg
Ranking Member                                           Ranking Member
Subcommittee on Transportation,                          Subcommittee on Transportation,
Housing and Urban Development, and                       Housing and Urban Development, and
Related Agencies                                         Related Agencies
Committee on Appropriations                              Committee on Appropriations
United States Senate                                     United States House of Representatives
Washington, DC 20510                                     Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Knollenberg:

This report presents our quarterly assessment of Amtrak’s fiscal year (FY) 2008
financial performance and operational reform savings. 1 Amtrak’s FY 2008
operating loss was $381.1 million, $93.9 million less than its original forecast, and
its end-of-year cash balance was $367 million, $178 million greater than
forecasted. These favorable results are due largely to revenues that were
$177.2 million greater than forecasted. In addition, Amtrak achieved $30.7 million
in operating reform savings through July, $5.0 million more than forecasted. We
believe Amtrak is unlikely to achieve its target of $40.3 million in FY 2008
operational reform savings. Finally, Amtrak faces serious financial issues during
the next several months, including the effects of an economic downturn, the
FY 2009 retroactive wage payment, and setting a strategic direction and priorities.
1
    Operating reform savings is defined as a reduction in operating costs or an increase in revenue. Amtrak’s
    operational reform savings estimates are through July of FY 2008.


CC-2008-074
                                                                                        2

Key Issues

• Amtrak Could Be Challenged Financially by an Extended Economic
  Downturn. Amtrak prudently reflected the risk of an economic downturn in
  its current FY 2009 budget. For example, Amtrak limited projected revenue
  growth to 7 percent in FY 2009, half the 14 percent growth achieved in
  FY 2008. Amtrak needs to continue its close monitoring of its finances and
  cash flows, as a severe or prolonged economic downturn could reduce
  revenues and available cash below acceptable levels.

• Amtrak’s Board Must Decide Whether Amtrak Can Afford the FY 2009
  Retroactive Wage Payments. The recent labor settlement gave the Amtrak
  Board responsibility to decide whether Amtrak has sufficient resources to
  make the $145 million payment it owes in FY 2009 for retroactive wages.
  Amtrak has a sufficient cash balance now to make the payment without
  additional appropriations. However, Amtrak is concerned that doing so may
  leave it with unacceptably low cash reserves at the start of FY 2010. The
  Board will need to revisit this issue closer to the payment date, given the
  uncertain impact of the economy on Amtrak’s finances and the inherent
  difficulty in forecasting revenues and cash flows. The timing of the Board’s
  assessment needs to take into account the timing of congressional action of the
  FY 2009 Continuing Resolution, which expires on March 6, 2009.

• Amtrak Needs to Determine a Strategic Direction that Incorporates
  Continuous Operating Improvements. Amtrak will require a significant
  increase in Federal support to bring its infrastructure into a state of good repair
  that meets the demands of its increased ridership and to pursue any system
  expansion. Increases such as these will be difficult to accommodate in an
  already tight budget environment. Therefore, Amtrak needs to set an overall
  strategic direction for the company and continue to seek new opportunities to
  reduce its need for Federal operating support. This would make Federal
  resources more readily available to Amtrak to meet its capital needs.

Amtrak’s FY 2008 Financial Performance Exceeded Projections

This section provides our assessment of Amtrak’s FY 2008 financial
performance. 2

Amtrak’s FY 2008 revenues totaled $2,427.0 million, $177.2 million, or
7.9 percent, more than Amtrak originally forecasted. Amtrak’s FY 2008 operating
expenses were $2,718.7 million, $89.1 million, or 3.4 percent, more than

2
    At the time of this report, Amtrak’s FY 2008 financial data had not been audited.


CC-2008-074
                                                                                                                                                                        3

       originally forecasted. Consistent with our August 7, 2008, report, 3 this favorable
       financial performance reflects better than expected ticket revenues that are offset
       somewhat by rising fuel and utility costs.

       Amtrak’s higher than forecasted FY 2008 year end cash balance of $367 million
       did not include $35 million appropriated to Amtrak in FY 2008, but not transferred
       to it before the end of the fiscal year. Amtrak’s year end balance would have been
       even higher had these funds been transferred. The increase in Amtrak’s year end
       cash balance above what it forecasted largely resulted from the higher than
       forecasted revenues and from a substantial portion of retroactive wage payments
       required by the recent labor agreement 4 ultimately being due in FY 2009, not
       FY 2008 as originally anticipated.

       Figure 1 below presents a comparison of Amtrak’s actual and budgeted FY 2008
       operating loss. 5

                                   Figure 1. Amtrak’s Actual vs. Budgeted Operating Loss
                                                          FY 2008

                           Oct       Nov        Dec        Jan       Feb         Mar          Apr           May         Jun         Jul           Aug         Sep
                     0
                            (27)
                                        (45)       (62)
                          (31)                                (95)                                                                           Operating loss is
                                     (62)                                                                                                    $94 million less
                                                                        (158)
                                               (108)                                                                                         than budgeted.
                                                                                    (194)
                  (200)
                                                          (176)                                     (220)
                                                                                                               (272)
  $ in millions




                                                                     (231)
                                                                                                                           (294)
                                                                                (275)                                                     (308)
                                                                                                                                                      (326)
                                                                                            (311)                                                               (381)
                  (400)                                                                                     (347)

                                                                                                                       (367)       (398)
                                                                                                                                                  (432)

                                                                                                                                                              (475)



                  (600)


                                                          Actual Operating Loss             Budgeted Operating Loss


Source: Amtrak.

       3
                  OIG Report Number CC-2008-074, “Quarterly Report on Amtrak’s FY 2008 Operational Reforms
                  Savings and Financial Performance, August 7, 2008. This report and our previous quarterly reports on
                  Amtrak’s savings from operational reforms are available at our website www.oig.dot.gov.
       4
                  See our “Review of Amtrak’s Labor Settlement Costs”, June 17, 2008, for additional details on the labor
                  agreements. The letter is available on our website.
       5
                  Operating loss is reported on an earnings before interest, taxes, depreciation, and other post-employment
                  benefits (EBITDO) basis, unless otherwise noted. We use the EBITDO basis because it is a reasonable
                  proxy for Amtrak’s Federal operating support requirement.


       CC-2008-074
                                                                                 4


Amtrak’s FY 2008 operating revenue increase of $177.2 million reflects ticket
revenues that were $126.8 million, or 6.9 percent, higher than forecasted and non-
passenger related revenues that were $40.9 million, or 13.7 percent, higher than
forecasted. Consistent with our August report, Amtrak attributed the improved
year-to-date performance for ticket revenues to fare increases, a peak pricing
strategy for Acela service, and an increase in ridership that resulted from higher
than anticipated gasoline prices and the deteriorating quality of service in the
airline industry. These ticket revenue increases were offset by revenue losses
caused by West Coast mudslides, Midwestern flooding, the Thames River Bridge
replacement, and Tropical Storms Fay and Gustav. Also in line with our August
report, increases in non-passenger related revenues reflected the one-time sale of
eight P-40 locomotives to the Connecticut Department of Transportation, higher
commercial development fees, and higher commuter and reimbursable revenue.

The $89.1 million increase in operating expenses reflects higher than expected
fuel, power, and utility (energy) costs, which was offset partially by lower than
expected personnel costs. FY 2008 energy costs were $72.4 million higher than
budgeted, largely due to the cost of diesel fuel. However, recent declines in fuel
prices reduced Amtrak’s fuel costs for FY 2008 by $36.6 million, from its May
year end forecast. Further, Amtrak has estimated that changes in fuel costs
generate a roughly equivalent offsetting change in revenues. That is, rising
gasoline prices induce customers to travel by train instead of by privately owned
vehicle or air, while declining gasoline prices induce Amtrak customers to drive.

Increases in operating expenses were partially offset through lower salaries, wages
and costs for benefits, which for FY 2008 were $20.9 million below budget.
Decreases in these areas reflected the result of a management hiring freeze,
significantly lower than expected costs for health benefits, and a variety of other
expenses in the facilities, communication, office, and casualty and other claims
expense categories.

Amtrak’s FY 2008 Operating Reform Savings Are Exceeding
Projections

Amtrak achieved $30.7 million in operating reform savings through July 2008,
mainly in its Environmental, Transportation, and Mechanical departments (see
table 2 on the next page). We expect Amtrak will fall slightly short of its
$40.3 million operational reform savings target for FY 2008.




CC-2008-074
                                                                                    5



           Table 2. Summary of FY 2008 Operating Reform Savings
                        ($ in millions through July )

                                       Budgeted       Actual          Variance
Saving Initiatives                    YTD Benefit   YTD Benefit          +/-
Reduce Costs and Improve
                                          $11.5        $11.6             0.1
Service Quality
Increase Sales and Distribution
                                           1.0          3.7              2.7
Efficiencies

Enhance Reliability and
                                          (6.6)        (5.9)             0.7
Efficiency of Mechanical Services

Improve Management Systems
                                           3.3          3.5              0.2
and Overhead Efficiencies

Achieve Ongoing Efficiencies              16.6         17.9              1.3

Total                                     $25.7        $30.7             5.0
Source: OIG calculations based on Amtrak data.
Note: Columns may not sum due to rounding.

The following sections provide details on Amtrak’s FY 2008 initiatives through
July 2008.

Reduce Costs and Improve Service Quality. The reform initiative to reduce
costs and improve service quality consists of three components—Northeast
Corridor (NEC) Service Improvement, Long-Distance Service Improvements, and
Food and Beverage Service restructuring. Amtrak saved $11.6 million through
this initiative, slightly more than it projected to save.

The NEC Service Improvement program focuses on generating greater revenues
from Acela service. In July 2007, as a result of Amtrak’s Reliability Centered
Maintenance (RCM) program, Amtrak introduced a 16th Acela trainset into
operation to increase service frequency and meet customer demand in the
Northeast corridor. Amtrak generated $2.3 million in additional revenues through
July 2008 from this initiative. Amtrak also took steps to improve customer
satisfaction on Acela to maintain and expand its customer base and increase
customer willingness to pay Acela’s premium fares. For example, Amtrak
overhauled the Acela first-class menu service, added leather seats in first class, and
continued to increase its focus on customer service. Acela ticket revenues in May,
June, and July of 2008 were at least 10 percent above forecasted levels. Amtrak



CC-2008-074
                                                                                  6

attributed another $4.8 million of its increased revenues through July 2008 to these
customer satisfaction improvements.

To further improve service and generate added revenues, Amtrak plans to provide
Wi-Fi service on Acela trains. Amtrak is currently testing service through a new
service provider. WiFi service is available in Amtrak stations.

Amtrak’s long distance service has been the largest operating loss generator for
the corporation. This service lost $422.8 million in FY 2007, 37.7 percent of
Amtrak’s actual total FY 2007 operating loss (see enclosure 3); and through
August of FY 2008, it lost $485.3 million, 47.4 percent of Amtrak’s total
operating loss through August. In its April 2005 Strategic Reform Initiatives,
Amtrak proposed to minimize these types of losses by cutting costs, increasing
revenues, and terminating or restructuring poor performing long distance routes.
Since then, the long distance service reforms implemented by Amtrak have been
almost exclusively directed towards increasing revenues. Consistent with this
approach, planned improvements for FY 2008 were to re-launch the Coast
Starlight service as a premium service, continue Amtrak’s focus on improving
overall customer service, and introduce luxury charter services.

The relaunch of the Coast Starlight included upgrading the service by redesigning
the Pacific Parlour Car and enhancing food and beverage services. The Parlour
Car initiative will increase revenue by charging for some of those services which
were previously offered as free amenities. Though initially planned for March
2008, the relaunch of the Coast Starlight was delayed until June 2008 to allow for
repairs of track damaged as a result of mudslides in the Oregon segment of the
route. Despite the delay, this initiative generated $1.4 million in additional
revenue through July, slightly higher than budgeted. Amtrak is examining whether
it can expand the Parlour Car premium service to other routes, such as the Empire
Builder.

Also, building upon similar efforts on the NEC, Amtrak placed customer service
managers on five routes—the City of New Orleans, Southwest Chief, Crescent,
Sunset Limited, and Empire Builder—to support specific service improvements.
This initiative, which began in April 2008, is achieving its monthly revenue
targets. Amtrak attributes $0.6 million in increased revenues to this initiative
through July. Finally, as previously reported, GrandLuxe decided to discontinue
its luxury charter service in November 2007 after eight trips, because it found the
venture unprofitable.

Amtrak’s losses from its Food and Beverage Service have long been a matter of
concern. In 2005, Amtrak’s Inspector General reported that Amtrak spent about
$2 for each $1 sale of food and identified substantial problems in the management


CC-2008-074
                                                                                                 7

of food services. 6 Since that time, Amtrak has taken steps to reform its food and
beverage service to reduce these losses. Nevertheless, Amtrak has lost $134.8
million on food and beverage service through August of FY 2008, an increase of
$12.4 million, or 10.1 percent, compared to the same period in FY 2007.

Amtrak’s effort to reform its food and beverage service has three components.
First, in FY 2007 Amtrak completed the transition to a “simplified dining” plan,
which involved shifting the food service from on-board food preparation to pre-
plated food. Second, it is working to combine its dining and lounge cars on
certain routes. Third, it renegotiated a more cost-effective contract with its food
service provider.

Amtrak has scaled back, or is reconsidering its original plan to deploy superliner
dining/lounge cars on some of the routes originally selected for this initiative.
Amtrak originally planned to deploy superliner dining/lounge cars on the City of
New Orleans, the Texas Eagle, and the Sunset Limited routes. The single
dining/lounge car was deployed on the City of New Orleans as planned. However,
Amtrak found that peak periods of high ridership may require the operation of two
food service cars on the Texas Eagle to meet passengers’ seating and food service
needs. Starting in January 2009, Amtrak will deploy a single dining/lounge car on
the Texas Eagle, and then will re-evaluate the situation in May 2009 to determine
whether a second food service car is needed. In contrast, Amtrak cancelled its
plans for a single dining/lounge car on the Sunset Limited because of inadequate
seating capacity.

Further, Amtrak continues to achieve savings through its renegotiated contract
with Gate Gourmet, its current on-board food service provider. Through July
2008, Amtrak achieved $2.3 million in overall savings from its food and beverage
service reforms, $0.4 million less than expected. This drop in savings is due to
Amtrak’s decision to cancel its plans for a single dining/lounge car on the Sunset
Limited, as well as to the unexpected costs of adding a fourth food service crew
member to handle the increased ridership on the City of New Orleans. Amtrak has
selected a new onboard food service provider, Aramark, which will start in
January 2009. With its new contract with Aramark, Amtrak forecasts an
additional $2 million in annual cost savings.

Increased Sales and Distribution Efficiencies. Through this initiative, Amtrak
plans to implement new technologies to increase the number and availability of
electronic ticketing and sales outlets, improve sales-related customer service,
reduce ticketing-related administrative costs, and implement demand-based

6
 “Evaluation Report: Food and Beverage Financial Performance,” Amtrak Inspector General Report
E-05-05.


CC-2008-074
                                                                                     8

pricing. Amtrak has already implemented aspects of this initiative, such as
reducing call center costs, and establishing an international travel agency website
to facilitate the sales of Amtrak tickets to foreign tourists. Amtrak’s current efforts
for this initiative focus on its e-ticketing program, and on specifically developing
the second phase of their international ticketing website, which has thus far
exceeded Amtrak’s financial expectations. Since the website’s launch in March
2007, Amtrak has achieved $3.7 million in additional revenue through July 2008,
which is $2.7 million more than planned. Amtrak attributes the revenue increases
to strong international demand for U.S. travel, spurred by the weakened dollar.
International travel to the United States has increased by 9 percent since last year.
Finally, in October 2008, Amtrak began a pilot to test hand-held ticket scanners,
which it plans to deploy on its trains in the spring of 2011.

Enhance Reliability and Efficiency of Mechanical Services. This initiative
focuses on the continued rollout of Amtrak’s Reliability Centered Maintenance
(RCM) program. The program seeks to reduce maintenance costs, improve
equipment reliability, and increase revenues by allowing trains to be returned to
revenue service earlier. For example, the efficiencies created by RCM have
enabled Amtrak to return two Acela trainsets back into service on the NEC. After
only 2½ years of implementation, Amtrak notes that the RCM program is 2
months ahead of schedule. This early success led Amtrak to broaden its scope for
the program. For example, RCM initially applied only to Acela equipment, but
now the program is being expanded to other equipment.

The implementation of Amtrak’s RCM program has required significant direct
costs, including design and implementation consulting fees. However, RCM
generates additional revenues that are reflected in Amtrak’s other initiative areas
because it allows additional trains to be put into service, and also improves
Amtrak’s On-Time Performance (OTP). The revenue gains from the RCM are
reflected under the Reduce Costs and Improve Service initiative. Therefore, the
savings for this initiative are recorded as a loss of $5.9 million through July, $0.7
million less than Amtrak expected to lose.

Amtrak continues to look for cost saving opportunities through facility
consolidation. Any savings from facility consolidation are reflected in the
productivity savings in the Environmental, Transportation, and Mechanical
departments program under the Achieve Ongoing Efficiencies initiative.

Improve Management Systems and Overhead Efficiencies. This initiative
consists of two programs—reduced energy costs and improved on-board credit
card automation, and has resulted in total savings of $3.5 million through July.
The program to reduce energy costs relies on negotiating more cost-effective
contracts, ensuring accurate billing, and reducing unnecessary usage, which have


CC-2008-074
                                                                                  9

resulted in a higher than expected net savings of $2.2 million through July 2008,
despite higher than budgeted utility costs.

The goal of the on-board credit card automation program is to increase revenues
by making it easier for customers to use credit cards and reducing the cost of
credit card transactions through automated processes and other improved
procedures. Amtrak attributed $1.2 million in revenue enhancements and cost
savings through July 2008 to this program. According to Amtrak, the savings are
on target for the food and beverage sales portion of this project. However, the
conductor sales portion of the project has been delayed to the first half of FY 2009
so that technological improvements can be implemented.

Achieve Ongoing Efficiencies. The initiative to achieve ongoing efficiencies
consists of three programs—engineering efficiencies, fuel use management, and
productivity savings in the Environmental, Transportation, and Mechanical
departments. Overall, this initiative has resulted in total savings of $17.9 million
through July, which is $1.3 million more than budgeted.

The engineering efficiencies program focuses on increasing the productivity and
reducing the costs of the engineering workforce. Through this initiative, Amtrak
reduced the Engineering Department’s core man-hours through July 2008
compared to the same period during FY 2007. In addition, the Engineering
Department’s overtime man-hours were reduced by 7 percent during the same
time period. However, through July 2008, this program lost $2.7 million, $4.1
million less in savings than was budgeted. This is because labor costs are higher
than were forecasted due to the recent labor settlement. To save fuel, Amtrak’s
managers have been informally instructing their employees to use train operating
techniques that incrementally save fuel. In May 2008, Amtrak hired a trainer to
formally instruct Amtrak managers and employees on best practices to further
Amtrak’s fuel use savings. As a result, Amtrak attributed $5.6 million in fuel
savings to this initiative through July 2008.

Finally, Amtrak is seeking to contain cost growth in the Environmental,
Transportation, and Mechanical departments through productivity improvements,
managing hiring, and other savings. Amtrak’s goal is a 2-percent reduction in
total of core salaries, straight time wages, and overtime in these departments,
compared to its May 2007 forecast of the FY 2008 budget. This initiative has
saved $15.0 million through July 2008, which is slightly less than budgeted.

Productivity improvements, such as enhanced work management systems in the
Engineering and Mechanical departments, have enabled Amtrak to eliminate
positions that are no longer needed and have become vacant due to attrition.
Additionally, Amtrak has improved its employee management by holding


CC-2008-074
                                                                                10

positions open longer when additional man-hours are not immediately needed.
Other savings resulted from changes in workload and increasing management’s
focus on non-labor related costs, such as fuel use and materials. Amtrak has not
set additional productivity savings targets for FY 2009 beyond the 2 percent
reductions, but continues to look for productivity savings wherever they can be
found.

Amtrak Could Be Challenged by an Extended Economic Downturn

Amtrak has reflected the economic risk of a recession in its FY 2009 budget plan,
in part by reducing its projection of FY 2009 revenue growth to half the actual
FY 2008 revenue growth and cutting its projected ridership growth by more than
half. Only 20 percent of Amtrak’s projected FY 2009 revenue growth is from
economic and demographic factors, the remainder is attributed to service changes
and improvements, fare increases, and marketing actions. Amtrak is projecting an
average 2 percent growth rate for most routes (slightly higher for non-NEC short
distance trains), reflecting the combined influence of demographic growth,
employment levels, disposable income, and other factors.              However, a
significantly weakened economy could pose risks to Amtrak’s ability to meet its
ridership and revenue targets. If the current economic downturn threatens
Amtrak’s finances in the near-term, it is likely to be a concern during the slower
travel season that starts at the beginning of calendar year 2009. Amtrak is closely
monitoring the situation. The consequences of the downturn should be considered
when Congress acts upon Amtrak’s FY 2009 full year appropriations.

Amtrak’s Board Must Decide in Calendar Year 2009 Whether Amtrak
Can Afford the FY 2009 Retroactive Wage Payment

Amtrak’s FY 2008 end-of-year cash balance provides sufficient funding to make
its FY 2009 retroactive payments. However, Amtrak fears that doing so would
leave it with an estimated $147.4 million cash balance at the start of FY 2010.
This amount would be less than the $180 million in cash on hand that Amtrak
believes it would need at the start of a fiscal year to meet its cash requirements.

As part of the recent labor settlement, Amtrak is scheduled to make a
$145.1 million payment in FY 2009 for retroactive wages. The first payment is
due in May 2009. However, the settlement gave the Amtrak Board the authority
to determine whether Amtrak can afford to make the payment. In accordance with
the provision of the settlement, if the Board determines that it has not received
sufficient funding or revenue to accommodate the retroactive wage payments,
Amtrak and its unions would be free to resort to self-help (that is, lockout or
strike) following a 30-day negotiating period and a subsequent 30 day “cooling
off” period.


CC-2008-074
                                                                                  11


Cash flows can be difficult to forecast. For example, in FY 2008 Amtrak
underestimated its end-of-year cash balance by $172 million or 92 percent.
Additionally, the state of the economy also affects Amtrak’s cash flow.
Consequently, early in calendar year 2009, the Board will need to reevaluate
Amtrak’s cash needs based on current financial data. The timing of the Board’s
assessment needs to take into account the timing of congressional action of the FY
2009 Continuing Resolution, which expires on March 6, 2009.

Amtrak’s Operating Reform Efforts Lack Strategic Direction

As we previously reported, Amtrak’s FY 2009 budget does not reflect any
additional savings from new operational reforms.                  Amtrak expects to
accommodate the lower than requested FY 2009 funding levels primarily through
revenues that are now forecasted to be higher than previously expected. Given the
tight Federal budget, it is our opinion that it will become increasingly difficult to
accommodate the funding increases Amtrak needs just to achieve a state of good
repair for its infrastructure and rolling stock, let alone provide for expansion.
Therefore, because of the envisioned difficulty to accommodate Amtrak’s funding
increase, Amtrak should include in its upcoming strategic plan and future
legislative and grant requests an explicit commitment to continue year-over-year
operating efficiency improvements, which would make it easier to provide
expanded funds for its other needs. Amtrak should also ensure that management
commitment and corporate resources are dedicated to define specific strategic
operational reforms, implementation plans, and a program management structure
that will provide an appropriate level of accountability and transparency.

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please contact me at (202) 366-1959 or
David Tornquist, Assistant Inspector General for Rail and Maritime Program
Audits and Economic Analysis, at (202) 366-1981.
Sincerely,



Calvin L. Scovel III
Inspector General
Enclosures (3)
cc:    Secretary of Transportation
       Chairman of Amtrak’s Board of Directors


CC-2008-074
                                                                           Enclosure 1
                                                                            Page 1 of 2

              Table 3. Amtrak’s Proposed Operational Reforms
                               ($ in millions)
   Strategic Reform
   Initiative and               Objective
   Program                                               FY 2008 Targeted Savings

   1. Reduce Costs and Improve Service Quality
                      Focus management
                      attention and drive
                      accountability for train
   NEC Service
                      service performance,                         7.0
   Improvements
                      including on-board service
                      quality and on-time
                      performance.
                      Enhance service flexibility by
   Food and           redesigning food services
   Beverage           (for example, multi-purpose                  3.3
   Services           food service cars), improving
                      equipment, and outsourcing.

   Long-Distance      Improve customer
   Service            satisfaction with long-                      4.3
   Improvement        distance service.
   2. Increase Sales and Distribution Efficiencies
                     Develop enterprise systems
   e-ticketing       and processes for                             1.3
                     e-ticketing.
   3. Enhance Reliability and Efficiency of Mechanical Services
                      Implement RCM to reduce
   Reliability
                      cycle time and increase
   Centered
                      equipment reliability and                    (8.3)
   Maintenance
                      availability. Costs represent
   (RCM)
                      consultant fees.
                      Optimize facility utilization by
   Facilities
                      consolidating and                            0.2
   Efficiencies
                      redesigning facilities.

   4. Improve Management Systems and Overhead Efficiencies

                      Modernize management of
   Reduce Energy      utilities contracts and identify
                                                                   2.0
   Costs              savings in individual utilities
                      line items.
                      Reduce overhead costs
   Reduce
                      through on-board credit card                 2.1
   Overhead Costs
                      automation




CC-2008-074
                                                                          Enclosure 1
                                                                           Page 2 of 2


            Table 3. Amtrak’s Proposed Operational Reforms (cont.)
                                 ($ in millions)

    Strategic Reform Initiative                              FY 2008 Targeted
                                         Objective
    and Program                                                  Savings

    5. Achieve Ongoing Efficiencies
                                  Reduce costs of
                                  Engineering department;
                                  maximize fuel efficiency
                                  of locomotives by
    Train Operations              training engineers,              19.9
                                  productivity savings in
                                  Environmental,
                                  Transportation, and
                                  Mechanical departments
    Total                                                          31.8
      Source: Amtrak




CC-2008-074
                                                                          Enclosure 2


              Table 4. Summary of Amtrak’s Savings through July of FY 2008
                                    ($ in millions)

                                                     Budgeted   Budgeted Actual
                                                                                   YTD
          Amtrak’s Net Operating Savings              FY 2008     YTD     YTD
                                                                                 Variance
                                                      Benefit    Benefit Benefit
Reform Initiatives
 1. Reduce Costs and Improve Service Quality           14.6       11.5      11.6     0.1
 NEC Service Improvements                              7.0         5.7       7.1     1.4
    NEC Acela Service Improvement                      4.0         3.0       4.8     1.8
    16th Acela Trainset                                1.7         1.8       2.3     0.5
     Implement On-board Wi-Fi                          1.3         0.9       0.0    (0.9)
 Long-Distance Service Improvements                    4.3         3.1       2.2    (0.9)
    Coast Starlight Relaunch                           2.2         1.3       1.4     0.1
    Customer Service Improvement                       0.9        0.6        0.6     0.0
    Luxury Charter Services                            1.2        1.2        0.2    (1.0)
 Food and Beverage                                     3.3        2.7        2.3    (0.4)
    Redesign Equipment                                 1.5        1.2        0.9    (0.3)
    Gate Gourmet Contract                              1.8        1.5        1.4    (0.1)
 2. Increase Sales and Distribution Efficiencies       1.3        1.0       3.7      2.7
    e-Ticketing Customized Access                      1.3        1.0        3.7     2.7
 3. Enhance Reliability and Efficiency of
                                                       (8.1)      (6.6)    (5.9)        0.7
      Mechanical Services
    Reliability Centered Maintenance                   (8.3)      (6.7)    (5.9)     0.8
    Facility Consolidation                              0.2        0.1      0.0     (0.1)
 4. Improve Management Systems and Overhead
                                                       4.1        3.3       3.5         0.2
      Efficiencies
    Reduce Energy Costs                                2.0         1.7      2.2      0.6
    On-Board Credit Card Automation                    2.1         1.6      1.2     (0.4)
 5. Achieve Ongoing Efficiencies                       19.8       16.6     17.9      1.3
    Fuel Use Management                                0.1         0.1      5.6      5.5
    Engineering Efficiencies                           1.7         1.4     (2.7)    (4.1)
    Productivity Savings in Environmental,
                                                       18.0       15.1      15.0    (0.1)
    Transportation, and Mechanical Departments
Reform Initiatives’ Savings                            31.8       25.7      30.7        5.0
    Savings from Unidentified Business Initiatives     8.5         0.0       0.0        0.0
Total                                                  40.3       25.7      30.7        5.0
Source: Amtrak
Note: Columns may not sum due to rounding.




        CC-2008-074
                                                                       Enclosure 3

                             Business Line Results

Amtrak's favorable corporate-wide operating results for FY 2008 are attributed
largely to the performance of the Northeast Corridor (NEC) line of business. NEC
income for the year was $99.8 million higher than last year, and largely reflected
higher ticket revenues. The operating loss on Amtrak's state-supported and other
corridors was $2.9 million more than last year, mainly because of higher wages
and fuel costs. The operating loss for long-distance trains was $62.5 million more
than last year because of higher wages and higher fuel costs, offset by higher
passenger revenues. The infrastructure management line of business lost $42.7
million, $0.7 million less than last year. The ancillary line of business made $93.7
million, $9.5 million more than last year. Data presented below are on a Generally
Accepted Accounting Principles (GAAP), rather than EBITDO, basis.

              Table 5. Amtrak Business Line Operating Performance
                                    ($ in millions)

                                                                         Variance to
Business Line                                 FY 2008       FY 2007
                                                                          Last Year

National Train System Operations                (235.2)     ($269.5)          $34.4

  Northeast Corridor                            $366.8         $267           $99.8

  State-Supported and Other Corridors         ($116.6)      ($113.7)          ($2.9)

  Long-Distance Service                       ($485.3)      ($422.8)         ($62.5)

Infrastructure Management                       ($42.7)      ($43.4)          ($0.7)

Ancillary Businesses                             $93.7         $84.2            $9.5

Unallocated System                            ($839.4)      ($892.2)          $52.7

Total                                        ($1,023.6)   ($1,120.9)          $97.3
Source: Amtrak
Note: Columns may not sum due to rounding.




CC-2008-074
Addendum: The following table contains information contained in a graph
(Figure 1) in this document. This information was not a part of the original
document but has been added here to accommodate assistive technology.

Figure 1: Amtrak Actual vs. Budget Operating Loss, Fiscal Year
2008 ($ in millions)

                               Actual Operating       Budget Operating
                                    Loss                   Loss
October                               -27                   -31
November                              -45                   -62
December                              -62                  -108
January                               -95                  -176
February                             -158                  -231
March                                -194                  -275
April                                -220                  -311
May                                  -272                  -347
June                                 -294                  -367
July                                 -308                  -398
August                               -326                  -432
September                            -381                  -475

Source: Amtrak




CC-2008-074
